AUDIT OF THE MANAGEMENT OF LAND
 ACQUIRED UNDER AIRPORT NOISE
    COMPATIBILITY PROGRAMS
      Federal Aviation Administration

        Report Number: AV-2005-078
      Date Issued: September 30, 2005
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of the Management of Land                                       Date:    September 30, 2005
           Acquired Under Airport Noise Compatibility
           Programs, Federal Aviation Administration
           AV-2005-078
  From:                                                                               Reply to
           David A. Dobbs                                                             Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           This report presents the results of our audit on the management of land acquired
           under airport noise compatibility programs using Airport Improvement Program
           (AIP) funds.1 Our audit objective was to determine if Federal Aviation
           Administration (FAA) oversight ensures that airport sponsors properly dispose of
           land purchased with AIP funds for noise compatibility programs when the land is
           no longer needed for that purpose or for airport development.

           Airports receive AIP grants to acquire land and sound-insulate homes and public
           buildings in areas exposed to significant aircraft noise. As a condition for
           accepting AIP grants, airports agree to dispose of land when it is no longer needed
           for noise purposes or airport development, such as terminal facilities and runway
           protection zones. The land is to be sold or leased for compatible uses (such as
           industrial or commercial development), and the proceeds are to be used for other
           noise projects or returned to the Airport and Airway Trust Fund,2 thereby reducing
           the need for grant funds.

           We assessed FAA’s and airport sponsors’ policies, procedures, and practices for:
           (1) identifying land no longer needed for noise compatibility purposes;
           (2) disposing of this land through sales, leases, or other means such as exchanges;
           and (3) ensuring that proceeds from disposed land are used for other noise
           compatibility projects or returned to the Trust Fund. We reviewed 11 of the 108

           1
               The AIP is administered by the Federal Aviation Administration, and it was established by the Airport and Airway
               Improvement Act of 1982. It and other FAA accounts are funded from the Trust Fund.
           2
               The Trust Fund was established by the Airport and Airway Revenue Act of 1970 and receives its revenue from taxes
               paid by passengers and airlines, including taxes on passenger tickets, fuel, and cargo.
                                                                                                                      2


airport sponsors who received AIP grants to acquire land under airport noise
compatibility programs from fiscal year (FY) 1982 through FY 2003. See Exhibit
A for additional information on our audit scope and methodology.


RESULTS IN BRIEF
Based on our review of 11 airports, we have serious concerns about FAA’s and the
airport sponsors’ inconsistent application of grant assurances and about Agency
policies regulating the disposal of land purchased under AIP grants for airport
noise compatibility purposes.3 In particular, we found that each of the 11 airports
has land, ranging from nominal acreage at several airports to hundreds of acres at
others, that is no longer needed for noise compatibility purposes or for airport
development. While 8 of the 11 airports had disposed of some unneeded noise
land, 6 of those 8 either did not use or could not document they used all of the
proceeds in accordance with grant assurances. With improved oversight of noise
land and its disposal, FAA could generate an estimated $242.3 million for the
Trust Fund or for other noise mitigation projects at the 11 airports. The following
summarizes our results.

9 Airports We Reviewed Were Not in Compliance With Grant
  Requirements. We found that each of the 11 airports included in this review
  have AIP-funded noise
  land that either is no         Table 1. Unneeded Noise Land and
  longer required for such                Estimated Valuations
  purposes or does not have                                Land       FAA’s
  a documented need for             Airport     Acres Valuation Share
  airport development. The                               (millions) (millions)
  unneeded acreage ranges     Bellingham             72     $11.3      $10.2
  from 12 acres at the        Charlotte Douglas     523       27.4       21.9
  Reno-Tahoe International    Cincinnati            684       20.5       16.4
  Airport to 840 acres at the Detroit               325       19.5       15.6
  Tucson        International Las Vegas              27       11.5        9.2
  Airport (see Table 1).      Palm Beach            161        5.6        4.5
  Together, the 11 airports   Phoenix                50        9.9        7.9
  have     3,608 acres     of Reno-Tahoe             12        2.6        2.4
  unneeded noise land,        Seattle-Tacoma        218       76.0       60.8
  which is 53 percent of the  Toledo                696        7.0        6.3
  6,820 acres acquired by     Tucson                840        5.9        5.4
  the airports with AIP        Total              3,608    $197.2     $160.6

3
    As a condition for accepting AIP grants, airport sponsors agree to dispose of AIP-funded noise land when it is no
    longer needed for noise compatibility purposes and, at FAA’s discretion, either return the proceeds to the Trust Fund
    or reinvest them in another FAA-approved noise compatibility project. FAA also permits airport sponsors to re-
    designate the land for airport development. For the purposes of this report, noise land is “unneeded” when it is no
    longer required for noise compatibility purposes or does not have a documented need for airport development.
                                                                                                                     3


    funds for noise compatibility purposes. The estimated value of the 3,608 acres
    is $197.2 million, with FAA’s share being $160.6 million.4

    Airport sponsors and FAA gave various reasons for not abiding by grant
    assurances for disposing of unneeded noise land: depressed real estate
    markets, uncooperative local communities, infrastructure limitations, environ-
    mental concerns, and others. Yet, recent experience at Seattle-Tacoma
    International Airport (Sea-Tac) demonstrates that, after two decades of land
    acquisitions, challenges such as those cited by airport sponsors and FAA can
    be overcome. Sea-Tac and local communities came together about a year ago
    to begin identifying, marketing, and utilizing vacant land with development
    potential, including unneeded noise land acquired with Federal funds.

    We also found that 8 of the
                                        Table 2. FAA Share of Disposed
    11 airports had sold, leased,5 or
                                                  Noise Land
    exchanged some of their
    unneeded        noise      land.                     Land      FAA’s
    However, six of the eight           Airport  Acres Valuation    Share
            6                                          (millions) (millions)
    airports either did not use or
    could not document they used Detroit          100      $6.0       $4.8
    proceeds from these disposals Las Vegas       160      50.5       40.4
    for purposes prescribed by        Phoenix     193      35.0       28.0
    grant assurances.       That is, Reno-Tahoe    46       6.2         5.8
    airport sponsors did not return Toledo         54       0.5         0.4
    FAA’s share ($81.7 million) of    Tucson      355       2.5         2.3
    the land’s estimated value         Total      908   $100.7       $81.7
    ($100.7 million) to the Trust
    Fund or use the proceeds for other FAA-approved noise mitigation projects
    (see Table 2).

    In response to our draft report, FAA cautioned that the land value estimates
    and potential FAA collections of disposal proceeds may be too optimistic. As
    we point out in our report, neither the airports nor we can determine precise
    valuations for the land until it is sold or leased. However, inasmuch as we
    used appraisals, sales, and lease information (where available) or airport staff
    estimates (in the absence of other information) to determine the value of land,

4
    For these 11 airports, FAA’s share ranges from 80 percent to nearly 94 percent of the land’s fair market value.
5
    In contrast to noise land sales and exchanges, which involve immediate credits to FAA or other noise mitigation
    projects, proceeds from leases would be incremental, possibly spanning 10, 15, or more years.
6
    Two airports (Charlotte Douglas and Cincinnati) properly used all proceeds from sales of noise land for other
    noise compatibility projects. Two airports (Toledo and Tucson) set aside proceeds from sales of noise land for
    noise compatibility projects but could not substantiate they had used proceeds from leases on noise land for noise
    compatibility projects. Likewise, one airport, Detroit, could not substantiate it was using lease proceeds properly.
    The other three airports (Las Vegas, Phoenix, and Reno-Tahoe) admitted they had not used proceeds from
    disposals for noise compatibility projects.
                                                                                                             4


    we believe our calculations for land values and potential FAA collections are
    reasonable. FAA did not provide us with any alternative estimated values for
    land covered by our review.

9 FAA Program Oversight and Guidance Need Strengthening. Five years
  after agreeing with an Office of Inspector General (OIG) recommendation that
  airports should dispose of unneeded land acquired with noise grants, the results
  of this audit show that FAA can do more to ensure airports dispose of
  AIP-funded noise land when it is not needed for such purposes or for airport
  development. Due to inadequate oversight, FAA is generally not aware of how
  much land airport sponsors have acquired under their noise compatibility
  programs, the sources of funds for the acquisitions, or the land’s current status.

    Moreover, past FAA guidance has not always conformed to grant requirements
    for AIP-funded noise land, and FAA has not provided sponsors with any
    national written guidance on using leases as a means of disposing of noise
    land. In an example of conflicting guidance, the Phoenix Sky Harbor
    International Airport is using lease proceeds from noise land for capital and
    operating costs based on guidance that FAA’s Western Pacific Region
    provided to the airport in 1989. The Region’s guidance contradicted the grant
    assurance requirement that airports either return the Federal share of the
    proceeds to the Trust Fund or reinvest it in other noise compatibility projects.
    FAA Headquarters acknowledged that it needs to provide its field offices with
    guidance on using leases for land disposals.

It is especially important for FAA to exercise sound financial oversight of AIP
grants during this period of declining revenue and high demands on the Trust
Fund7 to finance airport noise mitigation projects. Allowing $242.3 million to
remain idle or be used for ineligible purposes does not demonstrate the disciplined
financial management practices needed to protect Federal funds. Because our
findings are based on results from only 11 airports, idle funds could be
significantly higher if the same situation exists at some of the other 97 airports that
have used AIP grant funds to acquire land for noise compatibility purposes.

We are recommending a number of actions to ensure airport sponsors meet
requirements for disposing of unneeded noise land acquired with AIP grants. A
complete set of our recommendations can be found on pages 15 and 16 of this
report. In summary, we are recommending that FAA:

• Ensure airport sponsors implement written, FAA-approved plans for disposing
  of AIP-funded noise land that is no longer needed and either return the


7
    The National Plan of Integrated Airport Systems for 2005 through 2009 includes $1.4 billion for AIP-eligible
    projects, including land acquisitions.
                                                                                  5


   proceeds to the Trust Fund or reinvest them in other FAA-approved noise
   mitigation projects.

• Improve program oversight by making disposal of unneeded noise land a high
  priority and provide airport sponsors with guidance on using leases and
  revenue bonds to recover the Federal share of disposal proceeds.

For the 11 airports included in the audit, we are making two additional
recommendations regarding FAA’s share of noise land disposals. Specifically, we
are recommending that FAA direct sponsors for the 11 airports to develop and
implement plans to:

• Recover FAA’s share (estimated at $160.6 million) from the disposition of
  3,608 unneeded noise land acres.

• Recover FAA’s share (estimated at $81.7 million) of the affected lands’ fair
  market value from airports that are misusing noise land disposition proceeds.


Agency Comments and Office of Inspector General Response
We held an exit conference with FAA to discuss our findings, conclusions, and
recommendations and on August 12, 2005, provided FAA with a draft of our
report. On September 9, 2005, FAA provided us with its formal response to our
draft, which is contained in its entirety in the Appendix. FAA agreed with the
report’s recommendations but had comments concerning some issues raised in the
report. Specifically, FAA believes our estimates for land values and potential
FAA collections of disposal proceeds may be too optimistic. Further, FAA
commented that, in some situations, the FAA and a sponsor might find it more
attractive if the sponsor issues revenue bonds for the Federal share of the fair
market value of the land that has been developed and repays the FAA in a lump
sum. We revised the report to acknowledge revenue bonds as an alternative to
repay FAA for its share of unneeded noise land.

As we point out in our report, neither the airports nor we can determine precise
valuations for the land until it is sold or leased. However, inasmuch that we relied
on a variety of information from airport sponsors to estimate land valuations, we
believe our estimates for land values and potential FAA collections are reasonable.
FAA did not provide us with any alternative estimated values for land covered by
our review.

Where airports were improperly using proceeds from noise land dispositions, we
used actual sales, leases, and exchanges to establish estimated values of
$81.7 million for this land. For example, Las Vegas exchanged 74 acres of noise
                                                                                  6


land appraised for approximately $14 million. We, therefore, used $14 million as
the value of this land.

To estimate the value of unneeded noise land still held by the airports, we used
appraisals, sales, and lease information to estimate the value of land; otherwise,
we relied on airport staff estimates. A June 2004 appraisal obtained by Sea-Tac
airport to assist in developing ground rental rates and other charges valued the
land at $12 square foot, based on sales of 14 properties in Sea-Tac’s market area.
These properties were valued at approximately $11 to $15 per square foot, with a
midpoint of $12 per square foot for industrial land. The appraisal included
adjustments for location, size, and access exposure but did not include adjustments
for topography and shape. Comparatively, a consultant’s December 2004
estimates for developing airport properties, including noise land, valued land at
$4 to $27 per square foot for commercial uses and $5 to $8 per square foot for
industrial uses.

While FAA did not provide any alternative estimates for noise land values, its
formal response to our draft report cautioned that our estimates may be high. As
evidence, FAA cited 1 of the 14 properties included in Sea-Tac’s June 2004
appraisal. Yet, the appraiser valued the parcel cited by FAA at nearly $11 per
square foot, approximately $3 more than we used in our report. Accordingly, we
believe the $8 per square foot ($348,500 per acre) that we use in our report is
reasonable to compute the value of unneeded noise land at Sea-Tac.

FAA’s planned corrective actions are responsive to all of our recommendations.
However, FAA did not provide a target date for recovering the Federal share of
unneeded noise land, including prior noise land dispositions, at the 11 airports
included in our review. Accordingly, the two recommendations regarding
developing and implementing plans to recover $242.3 million from the 11 airports
will remain unresolved until FAA provides target dates for recovering these funds.


BACKGROUND
Airports are responsible for mitigating the effects of aircraft noise on surrounding
communities. Many airport sponsors rely, at least in part, on AIP grants to help
pay for their noise mitigation programs. From FY 1982 (the first year of funding
under AIP) through FY 2003, FAA provided $3.8 billion in AIP grants for airport
noise mitigation projects. These projects generally fall into the following
categories: noise land acquisition (including removal of structures and relocation
assistance), noise insulation, noise monitoring equipment, and noise barriers. Of
the $3.8 billion, 108 airports received $1.8 billion in AIP grants for noise land
acquisitions. See Exhibit B for a listing of AIP funding and noise land acreage for
each of the 108 airports.
                                                                                                                  7


As a condition of receiving AIP grants, sponsors sign a series of assurances that
operation, use, and maintenance of the airport will comply with pertinent laws,
regulations, or administrative policies. Under one of these assurances, airport
sponsors agree to dispose of AIP-funded noise land when it is no longer needed
for noise mitigation or airport development, restrict the land’s use to purposes
compatible with noise levels associated with airport operations, and either return
the proceeds to the Trust Fund or reinvest them in other FAA-approved noise
mitigation projects. Specifically, AIP Grant Assurance 31 “Disposal of Land”
requires:

        For land purchased under a grant for airport noise compatibility
        purposes, [the sponsor] will dispose of the land, when the land is no
        longer needed for such purposes, at fair market value, at the earliest
        practicable time. That portion of the proceeds of such disposition which
        is proportionate to the United States’ share of the cost of acquisition of
        such land will, at the discretion of the Secretary, be 1) paid to the
        Secretary for deposit in the Trust Fund, or 2) reinvested in an approved
        noise compatibility project as prescribed by the Secretary. Disposition
        of such land will be subject to the retention or reservation of any interest
        or right therein necessary to ensure that such land will only be used for
        purposes which are compatible with noise levels associated with
        operation of the airport.

FAA Headquarters and regional and district offices are responsible for providing
guidance to airport sponsors and ensuring sponsors meet Federal requirements for
AIP-funded noise land. FAA procedures require that, when reviewing a sponsor’s
request for Federal assistance or conducting periodic compliance reviews, FAA
staff must review airport plans, maps, land inventories, and noise compatibility
information to determine whether any grant-acquired noise land is no longer
needed for such purposes. According to FAA policy, airport sponsors may
redesignate land acquired under noise compatibility programs for airport
development purposes,8 but the designation must be justified by reasonable,
documented land-use projections approved by FAA.

In December 2000, we issued a report on various aspects of FAA’s Noise
Compatibility Program at five airports.9 Among other findings, the report
disclosed that FAA awarded new noise grants to two of the five airports even
though neither airport met grant assurances for disposing of unneeded land
acquired with noise grants. FAA agreed that airports should dispose of unneeded
land acquired with noise grants.
8
    Examples of airport development purposes include terminal facilities, aircraft landing and approach areas, runway
    protection zones, and airport utilities.
9
    OIG Report AV-2001-012, “Audit of the Airport Noise Compatibility Program,” December 14, 2000. OIG reports
    can be found on our website: www.oig.dot.gov.
                                                                                 8


RESULTS
Based on our review of 11 airports, we have serious concerns about FAA’s and
airport sponsors’ inconsistent application of grant assurances and Agency policies
regulating the disposal of land purchased under AIP grants for airport noise
compatibility purposes. In particular, we found that each of the 11 airports has
land, ranging from nominal acreage at several airports to hundreds of acres at
others, that is no longer needed for noise compatibility purposes or airport
development. While 8 of the 11 airports had disposed of some unneeded noise
land, 6 of those 8 either did not use or could not document they used the proceeds
in accordance with grant assurances. With improved oversight of unneeded noise
land and its disposal, FAA could generate an estimated $242.3 million for the
Trust Fund or for other noise mitigation projects at the 11 airports.


Each of the 11 Airports Reviewed Was Not in Compliance With Grant
Requirements
We found that each of the 11 airports included in this review has AIP-funded noise
land that is either no longer required for such purposes or does not have a
documented need for airport development, ranging from 12 acres at the
Reno-Tahoe International Airport to 840 acres at the Tucson International Airport.
Together, the 11 airports have 3,608 acres of unneeded noise land. The estimated
value of this acreage is $197.2 million, with FAA’s share being $160.6 million.

We also found that 8 of the 11 airports had sold, leased, or exchanged some of
their unneeded noise land. Two of these airports, Charlotte Douglas International
and Cincinnati/Northern Kentucky International, used all proceeds from land
disposals for other noise compatibility projects, as required by grant assurances.
In contrast, the other six airports did not return, or could not show they had
returned, FAA’s share ($81.7 million) of the land’s estimated value
($100.7 million) to the Trust Fund or used the proceeds for other FAA-approved
noise mitigation projects. The six airports are Detroit Metropolitan Wayne County
Airport, McCarran Las Vegas International Airport, Phoenix Sky Harbor
International Airport, Reno-Tahoe International Airport, Toledo Express Airport,
and Tucson International Airport.


Airports Have Not Disposed of Sizable Amounts of Unneeded Noise Land
From FY 1982 through FY 2003, the 11 airports reviewed used AIP grants to
acquire 6,820 acres of noise land. For the 11 airports, 53 percent of this land
(3,608 of 6,820 acres) is no longer needed. Based on information provided by
airport sponsors, 968 of the 6,820 acres have been disposed of through sale, lease,
or exchange; another 2,244 acres have been designated for airport development,
including runway protection zones; and the remaining acreage is considered
                                                                                  9


unneeded. Table 3 summarizes the status of all AIP-funded land acquired by the
11 airports under their noise compatibility programs.


  Table 3. Status of AIP-Funded Noise Land Acquisitions (in Acres)
                     Sold, Leased, or Designated for No Documented
       Airport                                                           Total
                       Exchanged      Development        Need
 Bellingham                    0              63             72             135
 Charlotte Douglas            10              60            523             593
 Cincinnati                    3              56            684             743
 Detroit                     100             125            325             550
 Las Vegas                   160             322             27             509
 Palm Beach                    0             106            161             267
 Phoenix                     193             231             50             474
 Reno-Tahoe                   46              99             12             157
 Seattle-Tacoma                0              87            218             305
 Toledo                       97             400            696           1,193
 Tucson                      359             695            840           1,894
  Total                      968           2,244          3,608           6,820

Sponsors and FAA staff offered a number of reasons why airports have unneeded
noise land and are not abiding by grant assurances and FAA policy. Some airports
may find it difficult to use or market small, noncontiguous residential lots,
especially during the early stages of implementing airport noise compatibility
programs; local real estate markets may be depressed; local communities may not
cooperate in rezoning the land for purposes compatible with normal airport
operations; infrastructure may need improvement; and environmental mitigation
may be required. However, over time (20-plus years for some airports), these
challenges should have been addressed and the land made marketable and
attractive to developers.

Sea-Tac’s experience shows that airports can overcome these challenges. After
two decades of land acquisitions and contentious relationships with surrounding
communities, the airport expects to begin marketing unneeded noise land by mid-
2006, with development beginning shortly thereafter. Based on a December 2004
report prepared by a commercial real estate consulting service, Sea-Tac and the
surrounding communities now recognize they would benefit from developing
vacant land around the airport. The report noted that it will take up to 5 years to
develop the land.
                                                                                                                  10


Unneeded noise land at airports such
as Sea-Tac is worth millions of dollars.   Figure 1. Example of Vacant
Based on recent land sales and other      Noise Land Adjoining Sea-Tac
information provided by airport                 International Airport
sponsors, we estimate unneeded noise
land at the 11 airports reviewed
(including Sea-Tac) is worth about
$197.2 million. Nevertheless, until it
is sold or leased, neither the airports
nor we can determine the precise
valuations.10 For example, some land
at      Sea-Tac     has      significant
infrastructure (see Figure 1), while
other land is difficult to access, does
not have utilities, and has highly variable topography and environmental
constraints. Estimates of the value of vacant noise land around Sea-Tac range
from $4 to $27 per square foot.11

When airports dispose of unneeded noise land, FAA is entitled to recover its
contribution based on the land’s current fair market value. For AIP grants, FAA’s
share is 80 percent for large- and medium-hub primary airports and 90 percent for
all other airports.12 Statute permits a higher share for the airports in Reno and
Tucson, due to the high percentage of federally owned land in Nevada and
Arizona. Using these percentages and estimated land values, we project that
FAA’s share of the 3,608 acres could be about $160.6 million.13 Table 4 lists
FAA’s potential share for unneeded noise land at the 11 airports reviewed.




10
     For example, around the Seattle and Las Vegas airports, land is worth an estimated $350,000 and $425,000 per
     acre, respectively, because of high demand for commercial and light industrial uses. In Detroit, estimated land
     values range from $20,000 per acre for agricultural uses to $250,000 for commercial uses. In Tucson, land values
     range from $4,000 to $10,000 per acre.
11
     A $12 estimate came from a June 2004 appraisal obtained by the airport to assist in developing ground rental rates
     and other charges. A $4 to $27 estimate for commercial uses and a $5 to $8 estimate for industrial uses came from
     a consultant’s December 2004 report for developing property, including noise land, around Sea-Tac. We used
     $8 per square foot ($348,500 per acre) in our analysis of unneeded noise land at Sea-Tac, resulting in a
     $76 million valuation for 218 acres of land.
12
     49 USC Section 47504 (4)(A) and (B); 49 USC Section 47109, et seq.
13
     Prior to sharing proceeds with FAA, airport sponsors can deduct expenses incurred to prepare the properties for
     disposal. Allowable deductible expenses include costs incurred for zoning and platting, upgrading utilities and
     services, and marketing the property. FAA staff and airport sponsors had little information regarding these
     expenses and, as a result, we did not figure in any deductions for this report.
                                                                                  11




    Table 4. Estimated Valuations of Unneeded Noise Land and FAA’s
                        Potential Financial Share
                                 Land Valuations            FAA’s Share
          Airport                               Total              Total
                            Acres Per Acre               Percent
                                              (millions)         (millions)
     Bellingham                72 $157,500       $11.3    90.0      $10.2
     Charlotte Douglas        523    52,300        27.4   80.0       21.9
     Cincinnati               684    30,000        20.5   80.0       16.4
     Detroit                  325    60,000        19.5   80.0       15.6
     Las Vegas                 27   425,000        11.5   80.0         9.2
     Palm Beach               161    35,000         5.6   80.0         4.5
     Phoenix                   50   198,200         9.9   80.0         7.9
     Reno-Tahoe                12   215,000         2.6   93.8         2.4
     Seattle-Tacoma           218   348,500        76.0   80.0       60.8
     Toledo                   696    10,000         7.0   90.0         6.3
     Tucson                   840     7,000         5.9   91.1         5.4
      Total                 3,608               $197.2             $160.6


Airports Are Improperly Using Proceeds From Noise Land Dispositions
Eight of the 11 airports reviewed disposed of 968 acres of noise land through
sales, leases, or exchanges. Two (Charlotte Douglas and Cincinnati) of the eight
properly used all proceeds for other noise compatibility projects. Two (Toledo
and Tucson) properly set aside all proceeds from sales and exchanges but could
not substantiate they used proceeds from leases on noise land for other noise
compatibility projects. Another airport, Detroit, also could not substantiate it was
using lease proceeds properly. The other three airports (Las Vegas, Phoenix, and
Reno-Tahoe) admitted they had used proceeds from noise land disposals for other
purposes, such as airport operations. Table 5 identifies the six airports that did not
use or did not document using proceeds from 908 acres of noise land for other
noise compatibility projects or return FAA’s share to the Trust Fund, as required
by grant assurances. FAA’s share of the 908 acres, which are worth an estimated
$100.7 million, is about $81.7 million.

In some cases, airport sponsors had not notified FAA field staff of noise land
sales, leases, and exchanges or what the airport had done with the proceeds, as
required by AIP Grant Assurance 5, “Preserving Rights and Powers.” In other
cases, FAA field staff were aware of noise land dispositions but did not ensure
airport sponsors properly disbursed the proceeds. For the six airports shown in
                                                                                 12


Table 5, the following         Table 5. FAA Share of Disposed Noise Land
cases identify where
airports sponsors either                                            FAA’s Share
                                                    Valuation
                                 Airport    Acres                          Total
did not credit or could not                         (millions)   Percent
                                                                         (millions)
show they credited FAA         Detroit       100       $6.0       80.0       $4.8
for its share of proceeds      Las Vegas     160       50.5       80.0       40.4
from the sale, lease, or       Phoenix       193       35.0       80.0       28.0
exchange of noise land         Reno-Tahoe     46        6.2       93.8         5.8
because sponsors did not       Toledo         54        0.5       90.0         0.4
follow and FAA did             Tucson        355        2.5       91.1         2.3
not      enforce      grant     Total        908     $100.7                 $81.7
requirements.

   • Detroit claimed but could not substantiate that it was using lease proceeds
     from 100 acres of noise land worth $6.0 million for other noise
     compatibility projects.

   • Las Vegas did not restrict proceeds from a $2.0 million sale of 3 acres of
     noise land to noise mitigation projects, it was using lease proceeds from
     73 acres (worth $31 million) of noise land for airport operations, and it did
     not credit FAA or the Trust Fund for five exchanges of noise land. The
     exchanges (84 acres) are worth an estimated $17.5 million. The largest
     exchange (74 acres appraised at $14.3 million) was part of a 2004 package
     deal for vacant land at an airport in nearby Henderson, NV, which does not
     have an FAA-approved noise compatibility program.

   • Phoenix acknowledged it was using lease proceeds from noise land
     (193 acres worth $35 million) for airport operations.

   • Reno-Tahoe did not credit its noise compatibility program for a
     $666,000 allowance received in lieu of cash for four acres of noise land.
     The credit was to offset traffic impact fees assessed by a regional
     transportation commission for new developments. In addition, Reno-Tahoe
     was not restricting the use of lease proceeds from 42 acres of noise land
     worth $5.5 million to noise mitigation.

   • Toledo sold 18 acres of noise land for $308,000 and appropriately set aside
     the proceeds for other noise mitigation efforts. Toledo also gave 25 acres
     of noise land to a local governmental agency in lieu of paying costs to
     relocate a park included in the airport’s noise compatibility program, which
     is permitted by regulations. However, Toledo could not substantiate that
     lease proceeds from 54 other acres of noise land worth $540,000 were
     restricted to noise mitigation.
                                                                                                                13


     • Tucson sold 4 acres of noise land for $750,000 and properly set the
       proceeds aside to acquire other land under its noise compatibility program.
       But Tucson did not use lease proceeds from 355 acres of noise land worth
       $2.5 million for noise compatibility purposes, using the funds instead for
       airport operations.


FAA Program Oversight and Guidance Need Strengthening
Five years after FAA agreed with an OIG recommendation that airports should
dispose of unneeded land acquired with noise grants, the results of this audit show
that the Agency can do more to ensure airports dispose of AIP-funded noise land
when it is not needed. Due to inadequate oversight, FAA is generally not aware of
how much land airport sponsors have acquired under their noise compatibility
programs, the sources of funds for the acquisitions, or the land’s current status.

Moreover, past FAA guidance has not always conformed to grant requirements for
AIP-funded noise land, and FAA has not provided sponsors with any national
written guidance on using leases as a means of disposing of noise land. In one
instance, the Phoenix Sky Harbor International Airport is using lease proceeds
from noise land for capital and operating costs based on guidance that FAA’s
Western Pacific Region gave to the airport in 1989. The Region’s guidance
contradicted the grant assurance requirement that airports either return the Federal
share of the proceeds to the Trust Fund or reinvest them in other noise
compatibility projects. FAA Headquarters acknowledged that it needs to provide
its field offices with guidance on using leases for land disposals.


Oversight
Based on the results of our review, we concluded that identification and timely
disposal of unneeded noise land has not been a high priority for FAA, even though
FAA agreed in its response to our December 2000 audit report that airports should
dispose of unneeded land acquired with noise grants. We also concluded that
FAA oversight of this program lacks a sustained surveillance effort14 that would
identify land no longer needed for noise compatibility or for airport development
and advise the sponsor to develop and implement plans for its disposition.
Throughout our review, we found FAA staff generally were not aware of how
much land sponsors had acquired under their noise compatibility programs, the
sources of funds for the acquisitions, or the current status of the land.



14
     Surveillance can take various forms, such as site visits by FAA personnel, telephone conversations or
     correspondence, review of airport and FAA files and financial records, and investigations of complaints from the
     aviation community.
                                                                                                            14


Further, we found that FAA field staff either did not have or were not using basic
information needed to ensure effective oversight for the 11 airports included in our
audit. We found that 4 of the 11 airports did not have land inventory maps
showing under which Federal grants and other programs the airports had acquired
the noise land. In addition, FAA had not received new master plans15 for 8 of the
11 airports within the last 5 years, including 3 airports that do not have a master
plan on file with FAA. Without current, accurate, and complete information, FAA
and airport sponsors cannot effectively identify and account for land no longer
required for noise compatibility or airport development purposes or determine the
Federal and public interest in any proceeds derived from the disposal of such land.

In our opinion, airport sponsors and FAA should consider additional tools for
cataloging information required for land bought with Federal funds. One such tool
is geographic information systems (GIS) software. With this software, users can
employ automated systems to input, organize, update, and analyze large amounts
of information. This will improve users’ ability to make educated decisions
regarding land bought with Federal funds. Some airports are beginning to use GIS
to manage land-related data, including several of the airports included in our audit.
For example, near the end of our audit, staff at Sea-Tac Airport used a local
county auditor’s GIS system to complete a comprehensive inventory of all its
airport land bought with Federal funds. The Phoenix Sky Harbor International
Airport was also beginning to implement GIS.


Guidance
Given the large number of U.S. airports, FAA relies heavily on voluntary
compliance by airport sponsors in fulfilling their Federal obligations. Thus, clear
guidance and continuing education for FAA and airport personnel, beginning
when an airport sponsor receives its first grant and periodically thereafter, is
critical to ensuring voluntary compliance with Federal grant requirements. While
we did not find any deliberate attempts by airport sponsors to circumvent grant
obligations, we observed that airport sponsors did not clearly understand their
obligations regarding disposal of unneeded noise land.

In part, sponsors did not understand their obligations because FAA staff did not
always provide them with appropriate guidance on how to use proceeds from noise
land dispositions. The Phoenix Sky Harbor International Airport was following
guidance for land acquired under noise compatibility programs that FAA
Headquarters staff recently acknowledged is not appropriate. The guidance, which
was provided in 1989 by FAA’s Western Pacific Region, states “The net
proceeds/revenue obtained from leasing land…is deposited into a separate fund for

15
     The airport master plan describes the airport’s long-term development needs. Some airports are providing FAA
     with documents, such as environmental assessments, in lieu of revising their master plans.
                                                                               15


the capital or operating costs of Phoenix Sky Harbor Airport.” This guidance does
not conform to grant assurances, which require that lease proceeds be returned to
the Trust Fund or reinvested in other FAA-approved noise compatibility projects
and not airport capital or operating accounts.

FAA Headquarters agrees that it needs to provide its field offices and airport
sponsors with written guidelines covering the use of leases for unneeded noise
land. Exhibit C contains a discussion of how airport sponsors and FAA could use
leases to generate funds for reinvestment in noise mitigation projects. In its
response to our draft report, FAA commented that, instead of repaying FAA with a
continuing stream of lease revenues, it might be more attractive in some situations
if airport sponsors issued revenue bonds to repay the Federal share of noise land
proceeds in a lump sum. We recognize that revenue bonds offer another option
for repaying the Federal share of unneeded noise land’s fair market value. We
revised our recommendation to include FAA guidance on the use of revenue
bonds.

FAA staff acknowledged that FAA’s guidance for disposing of unneeded noise
land needs clarification to preclude inconsistent and inadequate enforcement of
grant requirements between and within FAA regions and field offices. Further, to
enhance airport sponsors’ understanding of grant requirements and their impact,
FAA staff acknowledged that it would be prudent for FAA to provide and discuss
these requirements with airport sponsors more frequently, particularly where there
has been turnover in FAA and airport staff. FAA staff acknowledged the
importance of having FAA and airport sponsors participate in specialized
education, seminars, and conferences, such as FAA’s training course “Airport
Compliance” and FAA’s annual Airports Land Conference. With this type of
training, FAA can ensure attendees obtain information on how best to meet
Federal requirements for noise land acquisition and management.


RECOMMENDATIONS
For all airports with AIP-funded noise land, we recommend that the Federal
Aviation Administrator:

   1. Ensure that sponsors (a) implement written, FAA-approved plans for
      disposing of AIP-funded noise land that is no longer needed for noise
      compatibility programs or for airport development, and (b) either return the
      proceeds from any dispositions to the Trust Fund or reinvest them in other
      FAA-approved noise mitigation projects at the airports.

   2. Improve program oversight by making disposal of unneeded noise land a
      high priority; by maintaining sustained surveillance of noise land; and by
                                                                                16


      ensuring that basic information (such as airport master plans and land
      inventory maps) needed for effective program oversight is current, accurate,
      and complete.

   3. Provide a program of continuing education to enhance FAA staffs’ and
      airport sponsors’ understanding of grant requirements and their impact.

   4. Provide airport sponsors with guidance on using leases and revenue bonds
      to recover the Federal share of disposal proceeds.

For the 11 airports included in the audit, we recommend that the Federal Aviation
Administrator direct airport sponsors to develop and implement plans to:

   5. Recover FAA’s share (estimated at $160.6 million) from the disposition of
      3,608 unneeded noise land acres.

   6. Recover FAA’s share (estimated at $81.7 million) of the affected lands’ fair
      market value from airports that are misusing noise land disposition
      proceeds.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We held an exit conference with FAA to discuss our findings, conclusions, and
recommendations and on August 12, 2005, provided FAA with a draft of our
report. On September 9, 2005, FAA provided us with its formal response to our
draft, which is contained in its entirety in the Appendix. FAA agreed with the
report’s recommendations but had comments concerning some issues raised in the
report. Specifically, FAA believes our estimates for land values and potential
FAA collections of disposal proceeds may be too optimistic. FAA also noted that
the importance of keeping noise land for airport development cannot be
understated. Further, FAA commented that, in some situations, the FAA and a
sponsor might find it more attractive if the sponsor issues revenue bonds for the
Federal share of the fair market value of the land that has been developed and
repays the FAA in a lump sum.

As we pointed out in our report, neither the airports nor we can determine precise
valuations for the land until it is sold or leased. However, inasmuch that we relied
on a variety of information from airport sponsors to estimate land valuations, we
believe our estimates for land values and potential FAA collections are reasonable.
FAA did not provide us with any alternative estimated values for land covered by
our review.
                                                                               17


Also, we believe the report appropriately recognizes that unneeded noise land may
be designated for airport development, assuming such designations are justified by
reasonable, documented land use projections approved by FAA. We revised the
report to acknowledge revenue bonds as an alternative to repay FAA for its share
of unneeded noise land.

FAA’s response includes planned corrective actions for each of the report’s six
recommendations. The report also includes target completion dates for FAA’s
planned corrective actions, except for recommendations 5 and 6. A summary of
FAA’s planned corrective actions and target completion dates follows.

9 Recommendation 1. By April 2006, FAA expects to issue national guidance
  requiring airport sponsors to have written plans for the disposal of unneeded
  AIP-funded noise land and for either returning the proceeds from such
  disposals to the Trust Fund or reinvesting them in other FAA-approved noise
  mitigation projects. FAA will notify its regional offices and Airport District
  Offices of this requirement, and they in turn will notify airport sponsors
  directly.

9 Recommendation 2. Beginning in FY 2006, FAA expects to issue national
  guidance instructing its regions to develop detailed maps and inventories of
  AIP-funded noise land as part of Airport Layout Plan sets. FAA expects maps
  and inventories for the 11 airports audited to be completed within 24 months
  after the guidance is issued. FAA will also instruct its regions to develop plans
  and timetables to obtain this information for the remaining airports with
  AIP-funded noise land by the beginning of FY 2007. In addition, training for
  FAA and airport sponsor staff will include specific information about
  surveillance of noise land. Further, FAA will incorporate noise land audits into
  regular compliance audits for airports, including ensuring land inventory maps
  are complete and accurate.

9 Recommendation 3. Beginning in FY 2006, FAA intends to provide better
  educational resources and direct training to FAA staff, airport sponsors, and
  consultants to enhance the understanding of grant requirements and their
  impact. By the end of FY 2007, FAA expects to have offered all of its regions
  several grant-related recurrent training courses and other grant-specific
  training. In addition, FAA will investigate including noise land guidance in
  online training currently available to FAA staff. Sponsors and consultants will
  be offered training through yearly FAA regional airports’ conferences and the
  Airport Land Conference.

9 Recommendation 4. By the end of FY 2006, FAA intends to issue national
  guidance on using leases for land disposals, both as a handout in training
  sessions and as program guidance.
                                                                                18



9 Recommendations 5 and 6. FAA agreed to review all of the circumstances
  surrounding each of the 11 airports included in this audit to determine the
  scope of a repayment obligation. However, FAA did not provide a target date
  for completing the review and for recovering the Federal share of unneeded
  noise land, including prior noise land dispositions.

   Overall, we took a conservative approach to estimating land values. Where
   available, we used appraisals, recent sales, and lease information to estimate
   the value of land; otherwise, we relied on airport staff estimates. For example,
   values for land at Sea-Tac ranged from $4 per square foot to $27 per square
   foot. A June 2004 appraisal obtained by the airport to assist in developing
   ground rental rates and other charges valued the land at $12 square foot, based
   on sales of 14 properties in Sea-Tac’s market area. The values of these
   properties ranged between $11 and $15 per square foot with a midpoint of
   $12 per square foot for industrial land. The appraisal included adjustments for
   location, size, and access exposure but did not include adjustments for
   topography and shape. Comparatively, a consultant’s December 2004
   estimates for developing airport properties, including noise land, valued land at
   $4 to $27 per square foot for commercial uses and $5 to $8 per square foot for
   industrial uses. Because Sea-Tac has not disposed of any noise land, we used
   what we believe, considering all available information, is a conservative $8 per
   square foot ($348,500) estimate to compute the value of its unneeded noise
   land.

   Where airports were improperly using proceeds from noise land dispositions,
   we used actual sales, leases, and exchanges to determine land values. For
   example, Las Vegas exchanged 74 acres of noise land appraised for
   $14.3 million. We, therefore, used $14.3 million as the value of this land. In
   our opinion, FAA’s inability to provide any estimate as to the value of
   unneeded noise land or misused disposition proceeds identified in this report
   underscores the need for improved FAA oversight in this area. This is
   especially true for the airports where our estimates were based on actual
   disposal of the noise land through sale, lease, or exchange.


ACTIONS REQUIRED
FAA’s planned corrective actions are responsive to all of the report’s
recommendations. Recommendations 1 through 4 can be considered resolved and
will be subject to our audit follow-up process. However, without target
completion dates, recommendations 5 and 6 cannot be considered resolved at this
time. In accordance with Department of Transportation Order 8000.1C, we
                                                                              19


request that FAA provide target completion dates and estimated recoveries, within
30 calendar days of this report to resolve Recommendations 5 and 6.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Hunt, Deputy Assistant Inspector General for Aviation
and Special Program Audits, at (415) 744-3090.

                                       #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Associate Administrator for Airports
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                                             20




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
The audit objective was to determine if FAA oversight ensures that airport
sponsors properly dispose of land purchased with AIP funds for airport noise
compatibility programs when the land is no longer needed for such purposes or
airport development. The audit was conducted from July 2004 through May 2005
in accordance with Generally Accepted Government Auditing Standards
prescribed by the Comptroller General of the United States.

In addressing our audit objective, we reviewed laws, regulations, and FAA
policies and guidance regarding disposal of land acquired under airport noise
compatibility programs. We determined FAA’s oversight responsibilities through
discussions with senior management officials in (1) FAA’s Office of Airport
Planning and Programming in Washington, DC; (2) FAA regional offices in
Atlanta, GA; Chicago, IL; Los Angeles, CA; and Seattle, WA; and (3) FAA
district offices in Atlanta, GA; Burlingame and Los Angeles, CA; Detroit, MI; and
Seattle, WA.

According        to      the                       Table 6. Funding and Acreage at
information provided by                           Airports Selected for Detailed Audit
FAA,       108      airports
received     AIP      funds                                                           AIP Funds
                                                            Airport                                     Acres
totaling $1.8 billion to                                                              (millions)
acquire an estimated                        Bellingham                                   $10.6            135
20,000 acres of noise land                  Charlotte Douglas                             45.1            593
from FY 1982 through                        Cincinnati                                    30.5            743
FY 2003.16 We judgmen-                      Detroit                                       25.6            550
tally selected 11 of the                    Las Vegas                                     77.2            509
108 airports for detailed                   Palm Beach                                    51.7            267
audit. We did not find                      Phoenix                                       68.6            474
any material differences in                 Reno-Tahoe                                    45.3            157
funding data for these                      Seattle-Tacoma                                62.2            305
airports     but      found                 Toledo                                        26.8          1,193
differences in acreage                      Tucson                                        14.1          1,894
information.      Table 6                    Totals                                     $457.7          6,820
identifies funding and                       Percent of Audit Universe                    26%            34%
acreage       for        the
11 airports.


16
     We relied on data given to us by FAA to determine how many airports used AIP funds to acquire land for noise
     compatibility purposes and how much acreage was acquired with the funds. We did not verify FAA’s data, except
     at the airports where we conducted our audit.


Exhibit A. Objective, Scope, and Methodology
                                                                                 21


At the 11 airports, we reviewed files and records and interviewed airport staff to
verify funding and acquisition (acreage) data provided by FAA. Similarly, we
determined how much AIP-funded noise land was sold, leased, exchanged, or
designated for airport development and whether the airport sponsors had other
plans for developing land not required for noise compatibility or airport
development. We also determined whether airport sponsors restricted proceeds
from the sale, lease, or exchange of noise land to other noise compatibility projects
or to the Trust Fund and whether this land was used for purposes compatible with
noise levels associated with operation of the airports.           We toured and
photographed each airport’s noise land and reviewed airport master plans, layout
plans, and land inventory maps to confirm the land’s location and use. We also
reviewed aerial maps. Where available, we used recent sales or lease information
or both to estimate the value of the land; otherwise, we relied on airport staff
estimates.




Exhibit A. Objective, Scope, and Methodology
                                                                                                                   22




EXHIBIT B. AIRPORTS RECEIVING AIP FUNDING FOR NOISE
COMPATIBILITY PROGRAMS, FY 1982 THROUGH FY 2003

     Rank                       Airport Name17                                       AIP Funds               Acres18
       1        Atlanta Hartsfield International                                     $221,349,562              716
       2        St. Louis International                                               154,847,967              600
       3        Louisville International                                               86,472,618              335
       4        McCarran Las Vegas International                                       77,184,532              509
       5        Memphis International                                                  73,934,594              791
       6        Phoenix Sky Harbor International                                       68,631,776              474
       7        Seattle Tacoma International                                           62,211,114              305
       8        Indianapolis International                                             59,452,000              397
       9        Los Angeles International                                              52,153,299               80
      10        Palm Beach International                                               51,738,212              267
      11        Reno-Tahoe International                                               45,266,171              157
      12        Charlotte Douglas International                                        45,137,392              593
      13        Birmingham International                                               36,167,625              303
      14        Fort Lauderdale/Hollywood International                                35,375,684               99
      15        Norman Y. Mineta San Jose International                                31,306,091               24
      16        Cincinnati/Northern Kentucky International                             30,524,268              743
      17        Toledo Express Airport                                                 26,753,094            1,193
      18        Detroit Metropolitan Wayne County                                      25,642,860              550
      19        Louis Armstrong New Orleans International                              25,410,959               99
      20        Minneapolis-St Paul International                                      25,160,226               69
      21        Baton Rouge Metropolitan Ryan Field                                    24,439,659              172
      22        Tulsa International                                                    24,229,827              925
      23        Baltimore-Washington International                                     24,090,748              167
      24        Cleveland-Hopkins International                                        23,732,163               47
      25        Dekalb-Peachtree                                                       21,742,445               55
      26        Ontario International                                                  20,706,735               24
      27        Theodore Francis Green State                                           20,327,165               26
      28        Nashville International                                                18,448,600             N/A
      29        Sarasota/Bradenton International                                       17,629,696               64
      30        Dallas/Fort Worth International                                        17,240,565               64
      31        Des Moines International                                               15,756,720             N/A
      32        Albany International                                                   15,014,205              156
      33        Bob Hope                                                               14,754,651               31
      34        Orlando International                                                  14,620,864             N/A


17
     Airports No. 4, 6, 7, 10, 11, 12, 16, 17, 18, 36, and 42 were included in the audit.
18
     Acreage for those airports that did not respond to FAA’s data request is annotated as N/A (not available).

Exhibit B. Airports Receiving AIP Funding for Noise Compatibility
Programs, FY 1982 Through FY 2003
                                                                         23


 Rank                    Airport Name                  AIP Funds     Acres
  35    James M. Cox Dayton International              $14,195,138     743
  36    Tucson International                            14,135,951   1,894
  37    Tallahassee Regional                            13,666,735    N/A
  38    Lehigh Valley International                     13,250,364     319
  39    Austin-Bergstrom International                  13,100,000     150
  40    Adams Field                                     12,976,414      43
  41    Laredo International                            11,934,986      17
  42    Bellingham International                        10,626,404     135
  43    McGhee Tyson                                     8,951,724     503
  44    Shreveport Regional                              8,705,794     169
  45    Fort Worth Meacham International                 8,666,959      39
  46    Central Illinois Regional Airport                8,634,570     365
  47    Pittsburgh International                         7,997,140     395
  48    Fort Worth Alliance                              7,230,083     158
  49    City of Colorado Springs Municipal               7,022,469     133
  50    Boise Air Terminal/Gowen Field                   6,971,131      57
  51    Palm Springs International                       6,106,419       4
  52    Huntsville International-Carl T. Jones Field     5,697,498     313
  53    Erie International/Tom Ridge Field               5,033,000      21
  54    Will Rogers World                                5,026,046      29
  55    General Mitchell International                   4,690,046     101
  56    Orlando Sanford                                  4,592,335      15
  57    Santa Barbara Municipal                          4,506,736      23
  58    Fresno Yosemite International                    4,377,823       6
  59    Port Columbus International                      4,118,310      66
  60    Salt Lake City International                     3,994,269     102
  61    Burlington International                         3,869,795      12
  62    Cheyenne                                         3,593,424       5
  63    Fairbanks International                          3,508,861      38
  64    Rickenbacker International                       3,382,096     650
  65    Guam International                               3,296,226       6
  66    Fort Smith Regional                              3,221,913      86
  67    Syracuse Hancock International                   3,189,349       8
  68    Naples Municipal                                 2,677,117      97
  69    Capital                                          2,662,641     110
  70    Sacramento International                         2,555,705    N/A
  71    Greater Peoria Regional                          2,555,626      51
  72    Henry E. Rohlsen                                 2,331,236     NA
  73    Manchester                                       2,155,699      69
  74    Manassas Regional/Harry P. Davis Field           2,130,645     121
  75    Greater Rockford                                 1,989,900      46
  76    Akron-Canton Regional                            1,726,685      30
  77    Livermore Municipal                              1,495,060    N/A

Exhibit B. Airports Receiving AIP Funding for Noise Compatibility
Programs, FY 1982 Through FY 2003
                                                                                                               24


     Rank                     Airport Name                                      AIP Funds              Acres
       78     Barnes Municipal                                                    $1,328,641              48
       79     Albuquerque International Sunport                                    1,250,195            N/A
       80     Gainesville Regional                                                 1,246,366              16
       81     Blue Grass                                                           1,245,724            N/A
       82     Terre Haute International Hulman Field                               1,222,446             101
       83     Montgomery Regional (Dannelly Field)                                 1,158,337              63
       84     Glendale Municipal                                                   1,067,221              49
       85     Long Island MacArthur                                                1,019,109            N/A
       86     Chicago Midway International                                           930,526            N/A
       87     San Diego International                                                926,335            N/A
       88     Lake Charles Regional                                                  876,205            N/A
       89     Natrona County International                                           859,714            N/A
       90     Ted Stevens Anchorage International                                    827,587             120
       91     Rogue Valley International Medford                                     731,223              16
       92     Kansas City International                                              702,492             165
       93     General Edward Lawrence Logan International                            698,944            N/A
       94     Valley International                                                   585,301              44
       95     Norfolk International                                                  526,020               3
       96     Columbia Metropolitan                                                  492,000            N/A
       97     Easton/Newnam Field                                                    473,582               1
       98     Roanoke Regional/Wood Rum Field                                        433,267            N/A
       99     Rapid City Regional                                                    346,077            N/A
      100     Juneau International                                                   319,921               1
      101     Decatur                                                                240,024               4
      102     Lovell Field                                                           217,800               4
      103     Golden Triangle Regional                                               177,875            N/A
      104     Warroad International-Swede Carlson Field                               97,140            N/A
      105     Winchester Regional                                                     37,800               1
      106     Seminole Municipal                                                      32,728              29
      107     Roswell Industrial Air Center                                           31,500            N/A
      108     Carroll County Regional/Jack B. Poage Field                             10,184              70
               Total                                                          $1,790,116,693          17,89919




19
     Since a number of airports did not provide acreage numbers, we used the estimate of 20,000 total acres of noise
     land for our analysis.




Exhibit B. Airports Receiving AIP Funding for Noise Compatibility
Programs, FY 1982 Through FY 2003
                                                                                25




EXHIBIT C. NOISE LAND LEASES
Leases are an alternative to selling land purchased with AIP funds for noise
compatibility programs when the land is no longer needed for that purpose or for
airport development. FAA staff acknowledged that leases for compatible land
uses are consistent with congressional intent and Federal grant assurances.
Moreover, leases could be particularly attractive to airport sponsors, allowing
airports to maintain ownership and control of the land while providing a revenue
stream for noise compatibility projects, as well as airport operations and capital
projects.

Table 7 compares how FAA could recover its pro-rata share of a hypothetical
property worth $1 million under either a sale or lease. With a sale, FAA’s pro-rata
share of the proceeds would be available immediately for reinvestment in other
noise compatibility projects. Under a 15-year lease, the proceeds would be
available in installments, with interest accruing on the diminishing principal
balance. Assuming a 10 percent rate of return on the land’s fair market value, the
airport sponsor would
collect $100,000 during           Table 7. Proceeds From Sale or Lease
the lease’s first year:                 of Property Worth $1 Million
$69,400      would      be
                                                               Sale        Lease
credited to FAA and
                            Value at time of sale or lease $1,000,000 $1,000,000
$30,600 to the airport
                            –Development/marketing costs      100,000      100,000
sponsor. While FAA’s Net Value                               $900,000     $900,000
credit would remain
constant during the Sale: FAA’s proportionate
15-year        repayment share (80%)                         $720,000
schedule, the sponsor’s
revenue could rise if the Lease: 15 years, 5% interest
lease includes rental on diminishing principal
increases. If the lease balance
increases        3 percent –Principal Balance                             $720,000
annually (compounded),      –Interest                                      320,500
rental income would be –Total                                           $1,040,500
$156,800 in the 15th
year, with $69,400 credited to FAA and $87,400 to the sponsor. After the
15th year, FAA would have recovered its share, $720,000, of the property’s fair
market value, as well as interest totaling $320,500. Thereafter, the airport would
receive all the lease income, all of which could then be used for airport operations
and capital projects.




Exhibit C. Noise Land Leases
                                                                               26




APPENDIX. MANAGEMENT COMMENTS




                  Federal Aviation
                  Administration
Memorandum
Date:        September 9, 2005
From:        Assistant Administrator for Financial Services and Chief
             Financial Officer, ABA-1

To:          David A. Dobbs, Assistant Inspector General for Aviation and
             Special Program Audits

Prepared by: Barry Molar, Manager, Airports Financial Assistance Division, APP-500
Subject:     FAA’s Response to the Office of Inspector General’s Draft Report:
             Audit of Management of Land Acquired Under Airport Noise
             Compatibility Programs, Office of Airports (ARP)


This memorandum is provided in response to the subject report. The FAA has
reviewed the draft OIG document. In general, we agree with the recommendations
outlined in the draft report. However, we believe there are some issues that must
be highlighted and resolved to ensure the information contained in the report is
accurate. The following paragraphs summarize some of the key issues we believe
need further consideration.

1. Land Value estimate and estimate of potential FAA collection of disposal
   proceeds may be too optimistic.

We are concerned the values of the land cited provide a false expectation of funds
that may be coming back into the Trust Fund. The auditors’ estimate that at the 11
airports reviewed for the audit, some 4515 acres of acquired land (3608 acres
pending disposal plus 908 acres leased, exchanged or disposed) is worth $242.3
million. We believe the report should explicitly recognize that development cost
and marketing risk must be thoroughly researched to provide a credible estimate of
the net sales proceeds that may be expected on the disposal of excess land. The


Appendix. Management Comments
                                                                                  27


audit report estimate is not adequately supported by credible and verifiable
information and we suspect may be several times the value that can be expected on
the disposal of excess land.

To evaluate our concern over the cited land values, as your staff recommended, we
reviewed the SeaTac appraisal and development studies referenced in the draft
audit report. Your staff advised that SeaTac had the most comprehensive appraisal
documentation of the 11 airports reviewed. This appraisal estimated industrial
land values in the immediate vicinity of SeaTac airport at roughly $523.000 per
acre ($12/sq.ft). The auditors then estimated development cost at one-third of this
value and derived the value of the SeaTac land at $348,654 per acre (or $8/sq.ft).
The audit report then applied this value to the entire 218 acres that they estimate is
excess and available for market sale for a total value of roughly $76 million.

However, after review, we do not believe the appraisal offers independent support
of that high value for the SeaTac noise land. The property appraised and the sales
data and analysis applied in the appraisal are not directly comparable nor can they
be relied on to provide a specific value for the noise land tracts. In particular, of
the comparable sales that were used in the appraisal, there was only one (sale #11)
that we considered as somewhat comparable to the identified noise land tracts.
However, this sale was zoned, had development rights approved, had superior
access and topography and was immediately available for development. The
development cost necessary on the noise land (as is partially noted in the footnote
#4 of the draft audit report) would exceed the cost of the comparable development
on the sale property. Also the sale property is currently better located for
industrial use (i.e. major local roads and proximity to Interstate view and access).
In contrast, much of the development potential of the SeaTac noise tracts is
dependent on major road improvements, which are planned, but are not yet built.
Also, as is indicated in the appraisal reviewed and the development studies
conducted at SeaTac, there is a wide variance in potential values for the SeaTac
noise land depending on what development cost and market sales assumptions to
re-develop the land prove to be realistic. We believe, at best, the audit report
estimate relies on the most optimistic assumptions and the $76 million value
derived may not be reliable or a realistic estimate of likely disposal proceeds.

2. The importance of keeping satisfactory land for airport development
   cannot be understated.

We note that the draft report agrees with the FAA policy of permitting airports to
designate noise land as land needed for airport purposes. We agree that the
designation must be properly supported with reasonable land-use projections.
However, in making those projections, it is appropriate to recognize that there is
an additive value (over off-airport land), for land incorporated into the airport


Appendix. Management Comments
                                                                                  28


perimeter and available for airport operations. Therefore, in identifying disposal
areas, an airport sponsor and FAA must carefully consider what land may be held
that would increase the overall value of the airport above potential disposal sales
proceeds. Should land be disposed of and then need to be acquired again, any
benefit of the disposal would be lost because of the high cost to reacquire the land.
Therefore, current and long-range airport development plans should be carefully
reviewed before disposal of owned land.

Because of these concerns, we fully concur in the draft report’s support of leasing
as an acceptable means of disposal for noise land. Even in situations where a
future airport development use might be too speculative to support an AIP
development grant, the airport and airport system may benefit when the airport can
retain title. One example would be the situation outlined above – avoiding the
high cost of reacquiring the land at a future date. Another might be to provide the
airport with greater power to prevent incompatible land use. In these
circumstances, the use of lease proceeds for noise mitigation or deposit of lease
proceeds in the trust fund would fulfill the purpose of the noise land disposal
requirement and better serve the interests of the airport and the airport system.

3. Alternative method for recovering Federal share of noise land lease
   proceeds.

Appendix C provides an example of how the amount owed to the trust fund might
be calculated when a sponsor leases noise land for development. The example
contemplates a continuing payment to the trust fund until the amount due with
interest is completely reimbursed. In some situations, the FAA and a sponsor
might find it more attractive if the sponsor issues revenue bonds for the Federal
share of the fair market value of the land that has been developed and repays the
FAA in a lump sum. To avoid future uncertainty about whether this approach
conforms to your recommendations, it would be useful for the report to discuss
this as an acceptable alternative. We would be happy to discuss this concept
further with you or provide a more detailed example.

Concerning the specific recommendations contained in the draft OIG report, the
FAA offers the following:

Recommendation 1. Ensure that sponsors (a) implement written, FAA-approved
plans for disposing of AIP-funded noise land that is not longer needed for such
purposes or for airport development, and (b) either return the proceeds from any
dispositions to the Trust Fund or reinvest them in other FAA-approved noise
mitigation projects at the airports.




Appendix. Management Comments
                                                                                  29


We agree that sponsors should have a written plan for the disposal of unneeded
AIP-funded noise land. We plan to include a requirement for such a plan as a
required activity before closing a noise land grant (in much the same way that we
currently require sponsors to submit a revised Airport Property Map for other land
grants.) The plan will be appended to, or attached to the Exhibit “A” Airport
Property Map. We agree that sponsors will need to either return the Federal share
of the proceeds from any dispositions to the Trust Fund or reinvest them in other
FAA-approved noise mitigation projects.

We plan to issue the guidance by April 2006, prior to the FY 2006 grants season,
so that all noise land grants in FY 2006 and following will include this
requirement. This guidance will include program guidance and revised special
provisions to include in all noise land grants. We will notify all regional offices
and Airports District Offices of this requirement, who in turn will notify airport
sponsors directly.

Recommendation 2. Improve program oversight by making disposal of unneeded
noise land a high priority; by maintaining sustained surveillance of noise land;
and by ensuring that basic information (such as airport master plans and land
inventory maps) needed for effective program oversight is current, accurate and
complete.

We agree that accurate record keeping and strong program oversight will improve
the noise land program. We will incorporate noise land audits into regular
compliance audits for airports, including ensuring the land inventory maps are
complete and accurate. FAA does not approve an airport’s master plan, but rather
approves the Airport Layout Plan, which is a multisheet set of plans that includes
the Land Inventory Map. In the staff and airport training (see response to
Recommendation 3), we will include specific information about the reviews that
are needed for maintaining sustained surveillance of noise land.

In addition, we will instruct the regions to develop noise land inventories for
airports that bought land with AIP noise grants. The inventories will include
acreage, status of disposition and, where appropriate, use of proceeds from
disposition.

We anticipate issuing guidance to the regions beginning in FY 2006. We expect
that the maps and inventories for the 11 airports will be completed within 24
months of issuance of the guidance. We will instruct the regions to develop plans
and timetables for the remaining airports by the beginning of FY 2007. The maps
and inventories will be maintained in the regional offices or Airports District
Offices as part of the Airport Layout Plan sets.



Appendix. Management Comments
                                                                                  30


Recommendation 3. Provide a program of continuing education to enhance FAA
staffs’ and airport sponsors’ understanding of grant requirements and their
impact.

We agree that providing better educational resources and direct training to FAA
staff and airport sponsors (and consultants) will improve the program. As noted in
the draft OIG report, incomplete or inaccurate guidance from FAA offices may
have led to unintended, incorrect disposal of noise land or use of disposal
proceeds. Staff training will be offered at the Recurrent Compliance Course,
Recurrent AIP Programming, Recurrent Environmental and other grant-specific
training. Sponsor and consultant training will be offered through the Regional
Airports’ conferences which are held on a yearly basis and the Airport Land
Conference, cosponsored by the FAA, Federal Highway Administration and
International Right of Way Association. We anticipate offering this coursework
beginning in FY 2006 and expect to have offered it to all regions by the end of FY
2007.

We will also investigate including noise land guidance in the online training that is
currently available for Airports’ staff.

Recommendation 4. Provide airport sponsor with guidance on using leases for
land disposals.

As noted, we support the use of leasing as a disposal method for noise land, and
we agree that current guidance in this area needs improvement. We agree with
this recommendation and will develop and issue this guidance, both as a handout
in training sessions and as program guidance. We anticipate issuing this guidance
by the end of FY 2006.

For the 11 airports included in the audit, we recommend the Federal Aviation
Administration direct airport sponsors to develop and implement plans to:

Recommendation 5. Recover FAA’s share (estimated at $160.6 million) of the
proceeds from the disposition of 3,608 acres of unneeded noise land.

Recommendation 6. Recover FAA’s share (estimated at $81.7 million) of the
affected land’s fair market value from airports that are misusing proceeds from
noise land dispositions.

We agree that in cases where noise land proceeds have not been properly credited,
that corrective action may be needed with funds deposited into the Trust Fund or
applied to noise projects. However, as the audit report indicates, in some cases
sponsors may have been acting in good faith reliance on guidance or instructions


Appendix. Management Comments
                                                                              31


provided by FAA staff. While sponsors may have unintentionally been given
guidance that does not follow exact policy or grant requirements, a reimbursement
requirement may be considered as an unfair penalty in the face of good faith
actions on their part. We intend to review all of the circumstances surrounding
each of the 11 airports in determining the scope of a repayment obligation. Also,
as noted previously, we do not have sufficient appraisal information to concur in
the draft report’s estimate of the value of the noise land at these airports.

The FAA appreciates the opportunity to comment on the OIG’s draft report before
a final report is developed. FAA representatives are available to discuss the
comments and suggested changes to the draft report that are contained in this
memorandum. Should you have comments or need additional information, please
contact Mr. Barry Molar, Manager, Airports Financial Assistance Division at
(202) 267-3831.




Ramesh K. Punwani




Appendix. Management Comments
